Supreme Court, U.S.
FILED

DEC 20 2019

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

KALEIDA HEALTH

19-654
V.

KATHLEEN BIONDO
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

12/20/2019

Andrew Rozynski
El Mr. I=1 Ms. 0 Mrs. 0 Miss
Eisenberg & Baum, LLP
Firm
24 Union Square East, 4th Floor
Address

(Type or print) Name

City & State
Phone

New York, NY

212-353-8700

Zip
Email

10003

arozynski@eandblaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: John P. Danieu (Roach, Brown, McCarthy & Gruber P.C.)

RECEIVED
DEC 2 6 2019
OFFICE OF THE CLERK

SUPREME COURT, U.S.

